No.
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL ANDREW GARY
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 5th day of October, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6,700
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct. Executed
on October 5, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 5, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

Pg. 2
No.
USA v. Michael Andrew Gary

Kimberly Harvey Albro

OFFICE OF THE FEDERAL PUBLIC DEFENDER
BB&T Bank Building
1901 Assembly Street
Suite 200
Columbia, SC 29201-0000
Kimberly_Albro@fd.org

